March 25, 2004

Office of Inspector General
Department of Homeland Security
1120 Vermont Avenue, NW
Washington, D.C. 20005

Foxx & Company conducted an audit of the State of South Carolina Emergency
Management Division’s management and administration of disaster assistance programs
authorized by the Robert T. Stafford Disaster Relief and Emergency Assistance Act
(Public Law 93-288, as amended) and applicable Federal regulations. The audit was
performed in accordance with our GSA Contract No.GS23F9832H of September 30, 1999.

This report presents the results of our audit and includes recommendations to help improve
the State of South Carolina’s administration of Federal Emergency Management Agency
disaster assistance grant programs. During our audit we also identified management-
related issues involving regional office systems and procedures. These issues will be
reported under separate letter.

Our audit was conducted in accordance with applicable Government Auditing Standards,
1999 revision. Although the audit report comments on costs claimed by the state, we did
not perform a financial audit, the purpose of which would be to render an opinion on the
financial statements. The scope of the audit consisted of program and financial activities
for five Presidential disaster declarations and the supplemental HMG award for Hurricane
Floyd that occurred during the period of September 1989 through September 2002. The
scope of the audit included open Public Assistance, Hazard Mitigation, and Individual and
Family Grant Programs for each disaster, as applicable.

We appreciate the opportunity to have conducted this audit. If you have any questions, or
if we can be of any further assistance, please call me at (513) 639-8843 or Bill Moore at
(513) 703-6229.

Sincerely,

Foxx & Company




Martin W. O’Neill
Partner
                                                                                         Emergency Management Division
  FEMA                                                                                           State of South Carolina

                                                   TABLE OF CONTENTS


I.         Executive Summary ...........................................................................................................1

II.       Background ........................................................................................................................4

III.      Objectives, Scope, and Methodology ...............................................................................7

IV.        Findings and Recommendations ......................................................................................9

A.         Program Management.......................................................................................................9

           1.         HMG Quarterly Progress Reporting ........................................................................9

           2.         PA Quarterly Progress Reporting ..........................................................................11

           3.         Shared Mission Assignment Costs.........................................................................13

           4.         Administrative and Program Plans ........................................................................14

           5.         Subgrantee Single Audit Act Compliance .............................................................16

B.         Financial Management ....................................................................................................17

           1.         Allocation of State Management Costs..................................................................17

           2.         Use of Administrative Allowances ........................................................................18

Attachments..................................................................................................................................20

           A.         Schedule of Sources and Applications of Funds....................................................21

           B.         List of Acronyms ...................................................................................................28

Management Comments..............................................................................................................29

       FEMA Regional Office, Region IV........................................................................................30

       South Carolina Emergency Management Division ................................................................35
                                                           Emergency Management Division
 FEMA                                                              State of South Carolina


                           I. EXECUTIVE SUMMARY 


Foxx & Company has completed an audit of the South Carolina Emergency Management
Division (grantee) administration of FEMA’s disaster assistance grant programs. The objective
of this audit was to determine the effectiveness of the grantee’s management and administration
of disaster assistance programs authorized by the Robert T. Stafford Disaster Relief and
Emergency Assistance Act (Public Law 93-288, as amended) and applicable Federal regulations.
This report focuses on the grantee’s systems and processes for ensuring that grant funds were
managed, controlled, and expended in accordance with the Robert T. Stafford Disaster Relief
and Emergency Act (Stafford Act) and the requirements set forth in Title 44 of the Code of
Federal Regulations (44 CFR). Although the scope of this audit included a review of costs
claimed for the declared disasters, a financial audit of those costs was not performed.
Accordingly, we do not express an opinion on grantee’s financial statements. The funds
awarded and costs claimed for the disasters included in the audit scope are presented in
Attachment A of this report.

Our audit included five major disasters declared by the President of the United States between
September 22, 1989 and September 30, 2002 and the supplemental declaration for Hurricane
Floyd (Supplemental Declaration No. 4299). Three of the major disasters involved all three
types of grant programs: Public Assistance (PA), Individual and Family (IFG), and Hazard
Mitigation (HMG). The supplemental declaration for Hurricane Floyd only included funding for
HMG projects. Disaster Nos. 1243 and 1313 did not include grants under the IFG program. The
Federal share of obligations for the five disasters and the supplemental declaration was over
$358 million. Federal funds claimed through September 30, 2002 were over $352 million.

In accordance with our agreement with the Office of Inspector General (OIG), our audit focused
on the grantee’s current program and financial management procedures and practices. During
the audit, we strived to identify the causes of each reportable condition. We also made
recommendations that, if implemented properly, would improve grantee management, eliminate
or reduce weaknesses in internal controls, and correct noncompliance situations. The findings
summarized below are discussed in detail in the body of the report.

Program Management

   •   HMG Quarterly Progress Reporting

       Improvements were needed in the state’s preparation and submission of HMG quarterly
       progress reports. Quarterly progress reports prepared by the grantee for HMG projects
       did not adequately describe the status and work progress of FEMA-approved HMG
       projects. The reports do not include essential information, such as estimated starting
       dates, percentage of completion, reasons for delays, or other events that may impact the
       Federal funding and/or estimated completion dates. As a result, FEMA Region IV was


                                              1

                                                         Emergency Management Division
FEMA                                                             State of South Carolina

    not provided essential information on the grantee’s HMG programs to exercise its
    management responsibility.

•   PA Quarterly Progress Reporting

    South Carolina did not submit quarterly progress reports to the FEMA regional office on
    large PA projects for Disaster Nos. 1299 and 1313, as required. In addition, the grantee
    did not enforce the requirement included in the approved PA administrative plan that
    subgrantees submit quarterly progress reports to the grantee for review. Accordingly,
    FEMA Region IV could not readily assess the progress of large PA projects.

•   Shared Mission Assignment Costs

    South Carolina owed FEMA the state share of two mission assignments. FEMA and the
    grantee agreed to share the cost of two mission assignments for Disaster No 1299. The
    cost of these mission assignments was $1,055,455 and state’s share was $263,861. The
    grantee stated that it had not paid its share because FEMA had not billed the state as
    required under Federal regulations

•   Administrative and Program Plans

    Improvements were needed in the preparation and submission of required Hazard
    Mitigation program plans and administrative plans for the Individual and Family, Public
    Assistance, and Hazard Mitigation Grant programs. The grantee did not always submit
    the required plans. In addition, the plans submitted contained incorrect references to
    Federal requirements. As result, the grantee was not complying with Federal
    requirements to have up-to-date, complete administrative and program plans.

•   Subgrantee Single Audit Act Compliance

    Improvements were needed in the grantee’s procedures for ensuring that HMG and PA
    subgrantees comply with the requirement of the Single Audit Act. Although some Public
    Assistance subgrantees provided single audit reports, the grantee did not review the
    reports to determine if “material” findings had been reported that might affect the award
    of future Federal disaster assistance funds. Also, grantee officials were not aware that
    some HMG program subgrantees had submitted audit reports for review. Accordingly,
    the grantee did not have reasonable assurance that HMG and PA subgrantees had
    properly accounted for or safeguarded Federal funds in accordance with Federal
    requirements.




                                            2

                                                           Emergency Management Division
 FEMA                                                              State of South Carolina



Financial Management

  •   Allocation of Management Grant Costs

      South Carolina’s procedures for allocating Federally funded management costs need to
      be improved. Our audit disclosed that management costs were not always charged to the
      correct disaster. The grantee charged all management costs to Disaster No. 1299 even
      though effort was expended on other HMG disaster programs. For example, costs related
      to employee regular salaries, fringe benefits, and equipment costs should have been
      allocated and charged to open HMG program disasters, as appropriate, in accordance
      with OMB Circular A-87 rather than just Disaster No. 1299. As a result, the cost
      reported for Disaster No. 1299 was overstated and the costs of other open disasters were
      understated.

  •   Use of Administrative Allowances

      The grantee used administrative allowances to pay expenses that were not extraordinary
      as defined by Federal regulations. For the PA and HMG programs for Disaster No. 1299,
      the grantee used over $30,000 of the administrative allowance to pay for computer
      software, user licenses, and other computer-related purchases. By regulation, these types
      of expenses are not to be considered extraordinary and are not to be paid with
      administrative allowance funds. As a result, the grantee was not in compliance with the
      Federal requirements.




                                              3

                                                                       Emergency Management Division
    FEMA                                                                       State of South Carolina

                                                 II. Background
 When Federal assistance is needed, a Governor can request the President of the United States to
declare a major disaster and thereby make relief grants available through the Federal Emergency
Management Agency (FEMA). FEMA, in turn, can make grants to state agencies, local
governments, private citizens, nonprofit organizations, and Indian tribes or authorized tribal
organizations through a designated agency within the affected state.

Robert T. Stafford Disaster Relief and Emergency Assistance Act, as amended

The Stafford Act governs disasters declared by the President of the United States. Title 44 of the
Code of Federal Regulations (CFR) provides further guidance and requirements for
administering disaster-relief grants awarded by FEMA.

The three major programs addressed in this audit were:

      •    Individual and Family Grants
      •    Public Assistance Grants
      •    Hazard Mitigation Grants

Individual and Family Grants (IFG) are awarded to individuals and families who, as a result of
a disaster, are unable to meet disaster-related expenses and needs. To obtain assistance under
this type of grant, the Governor of the state must express an intention to implement the IFG
program. The Governor's request must include an estimate of the size and cost of the program.
The IFG program is funded by FEMA (75 percent) and the state (25 percent).

Public Assistance (PA) Grants are awarded to state agencies, local governments, qualifying
private nonprofit organizations, Indian tribes, or authorized tribal organizations for the
repair/replacement of facilities, removal of debris, and establishment of emergency protective
measures necessary as a result of a disaster. To receive a PA grant, a designated representative
of an organization affected by the disaster must sign a Notice of Interest. After the notice is sent
to the grantee and to FEMA, FEMA schedules an inspection of the damaged facilities. An
inspection team prepares Project Worksheets (PWs)1 identifying the eligible scope of work and
estimated cost for the projects. FEMA reviews and approves the PWs and obligates the funds.
At least 75 percent of the eligible cost of projects is paid by FEMA and the remainder of the cost
is paid by non-Federal sources.

In accordance with 44 CFR 206.203, PA projects are classified as either “small” or “large.” The
classification is based on a project threshold amount that is adjusted annually to reflect changes
in the Consumer Price Index for all Urban Consumers, as published by the U.S. Department of
Labor. For example, the threshold for Disaster No. 1313 was $48,900. Projects costing less than
$48,900 were classified as “small” and projects costing $48,900 or more were classified as
“large” projects.

1
    Prior to the use of PWs, Damage Survey Reports (DSRs) were used.
                                                        4
                                                              Emergency Management Division
 FEMA                                                                 State of South Carolina


To speed up payments to subgrantees for small projects, the Federal share of the cost is to be
disbursed as promptly as possible after approval by FEMA. Subgrantees of large projects submit
periodic requests to the state for funds to meet expenses incurred or expected to be incurred in
the near future. When a project is completed, the state determines and reports the final cost to
FEMA. FEMA then adjusts the amount of the large project to reflect the actual cost.

Hazard Mitigation Grants (HMG) are awarded to states to help reduce the potential for future
disaster damages. The state must submit a Letter of Intent to participate in the program and
subgrantees must submit an HMG proposal to the grantee. The grantee is responsible for setting
priorities for the selection of specific projects, but each project must be approved by FEMA.
FEMA awards subgrants to state agencies, local governments, qualifying private nonprofit
agencies, Indian tribes, or authorized tribal organizations. The costs of the projects are shared
with FEMA with the Federal share not exceeding 75 percent of the costs. However, the amount
of Federal assistance under the HMG program is limited pursuant to Section 404 of the Stafford
Act.

Under the PA and HMG programs, FEMA may grant three types of administrative funds for
overseeing the program:

    1. An administrative cost allowance to the grantee to cover extraordinary costs directly
       associated with administering the program. The allowance amount is determined by a
       statutorily mandated sliding-scale percentage (ranging from one-half of one percent to
       three percent) applied to the total Federal disaster assistance awarded under the program.
       The allowance is intended for extraordinary costs incurred by state employees for
       preparing damage survey or final inspection reports, processing project applications,
       conducting final audits and related field inspections; including overtime, per diem, and
       travel expenses. The administrative cost allowance does not include regular time for
       employees.

    2. 	State management costs to cover expenses directly associated with the program that are
        not covered by the administrative cost allowance.

    3. 	Indirect costs based on an approved indirect cost allocation plan.

For the IFG program, up to five percent of the Federal share of total program costs may be
granted for administration costs.

South Carolina Emergency Management Division

The South Carolina Emergency Management Division (grantee) is the disaster and emergency
management agency for the State of South Carolina. As the central point of contact within the
state for all emergency management activities, the Division works with state-level, Federal, city,
county, or private organizations to make South Carolina citizens safe from disasters and reduce
the physical harm and financial losses suffered from those events. The grantee is responsible for
                                                5

                                                             Emergency Management Division
 FEMA                                                                State of South Carolina

ensuring the establishment and development of policies and programs for emergency
management at the state and local levels. This responsibility includes the development of a
statewide capability to mitigate against, prepare for, respond to, and recover from the full-range
of emergencies, both natural and technological.

The South Carolina Emergency Management Division is part of the Military Department of
South Carolina, which is headed by the state’s Adjutant General. The grantee had approximate
50 employees. The State Emergency Operations Center was located at the Pine Ridge National
Guard Armory in West Columbia, South Carolina.

The grantee’s Recovery and Mitigation Division is responsible for the state’s mitigation, public
assistance, and individual and family grant programs. The grantee managed the PA and HMG
programs, but relied upon the Sate of South Carolina Department of Social Services (DSS) to
manage the IFG program. Financial responsibility for the PA, IFG, and HMG programs resided
with the grantee.




                                                6

                                                                Emergency Management Division
 FEMA                                                                   State of South Carolina

                    III. Objectives, Scope, and Methodology

The objectives of this audit were to determine if the State of South Carolina (the grantee):
   •	 Administered FEMA disaster assistance programs in accordance with the Stafford Act
      and applicable Federal regulations;
   •	 Complied with the FEMA-approved disaster assistance administrative plans;
   •	 Properly accounted for and expended FEMA disaster assistance funds; and
   •	 Operated and functioned appropriately to fulfill its administrative, fiscal, and program
      responsibilities.

The scope of the audit included five major disasters and the supplemental declaration for
Hurricane Floyd. These disasters were declared between September 1989 and September 2002,
and are listed below.

                              Declaration                                        Disaster Programs

    Number           Date                      Disaster                  IFG          PA        HMG
     843           09/22/89                Hurricane Hugo               Closed       Closed     Closed
     881           10/22/90           Severe Storms and Flooding        Closed       Closed     Closed
     1243          09/04/98               Hurricane Bonnie               N/A         Open       Open
     1299          09/21/99                Hurricane Floyd              Open         Open       Open
     1313          01/31/00               Severe Ice Storms              N/A         Open       Open
     4299          11/29/99      Supplemental HMG for Hurricane Floyd    N/A          N/A       Open

The cut-off date for program and financial management activities for the audit was September
30, 2002. However, we also reviewed more current activities related to conditions found during
our audit to determine whether appropriate corrective actions had been taken.

Our audit fieldwork was initiated at the FEMA Region IV Office in Atlanta, which had Federal
jurisdiction over FEMA disaster programs in the State of South Carolina. Our methodology
included interviews with FEMA headquarters, regional office, and state officials to obtain an
understanding of internal control systems and to identify current issues or concerns relative to
the grantee’s management of disaster programs. Our audit considered FEMA and state policies
and procedures as well as the applicable Federal requirements. Documentation received from
the grantee, as well as from FEMA headquarters, the regional office, and the Disaster Finance
Center in Berryville, Virginia, was reviewed. The audit also included discussions with grantee
officials concerning the state’s policies, procedures, and processes for managing the programs.

We reviewed prior audit reports issued within the timeframe of the disasters included in our
scope, including OMB Circular A-133 audit reports and the project-by-project subgrantee audit
reports prepared by the Office of Inspector General (OIG). Our audit scope did not include
interviews with or visits to subgrantees or project sites. We also did not evaluate the technical
aspects of the repairs to disaster-caused damage.
                                                7

                                                             Emergency Management Division
 FEMA                                                                State of South Carolina


The audit was conducted in accordance with Government Auditing Standards as prescribed by
the Comptroller General of the United States (Yellow Book-1999 Revision). We were not
engaged to and did not perform a financial statement audit, the objective of which would be to
express an opinion on specified elements, accounts, or items. Accordingly, we do not express an
opinion on the costs claimed for the disasters under the scope of the audit. If we had performed
additional procedures or conducted an audit of the financial statements in accordance with
generally accepted auditing standards, other matters might have come to our attention that would
have been reported. This report relates only to the accounts and items specified. The report does
not extend to any financial statements of the South Carolina Emergency Management Division
or the State of South Carolina and should not be used for that purpose.




                                               8

                                                               Emergency Management Division
 FEMA                                                                  State of South Carolina

                       IV. Findings and Recommendations 


The findings and recommendations focus on South Carolina’s systems and procedures for
ensuring that grant funds are managed, controlled, and expended in accordance with the Stafford
Act and applicable Federal regulations. The findings from the audit concerned the grantee’s
program and financial management activities for the PA, IFG, and HMG programs. These
findings are summarized below.

We believe that proper implementation of our recommendations will improve the overall
management of FEMA programs and correct the noncompliance situations noted during the
audit.

A.     Program Management

1.     HMG Quarterly Progress Reporting

Improvements were needed in the grantee’s preparation and submission of HMG quarterly
progress reports. Quarterly progress reports prepared by the grantee for HMG projects did not
accurately describe the status of FEMA-approved HMG projects. The reports did not include
information on estimated starting dates, percentage of completion, reasons for delays, or other
events that could impact the Federal funding and/or estimated completion dates. As a result,
FEMA Region IV was not provided up-to-date or useful information on FEMA-approved
projects.

Federal regulations [44 CFR 206.438(c)] require states to submit quarterly progress reports to the
regional office on FEMA-approved projects. These reports are to include the status and
completion date for each project. Any problems affecting completion dates, scope of work or
project costs that may result in noncompliance with the approved grant conditions are to be
described in the report. The quarterly progress reports are to be used to monitor the progress of
projects and, among other things, to identify factors, which may adversely affect the progress
and/or the estimated costs of the project(s).

To evaluate the grantee’s system for the preparation and submission of the required quarterly
reports, we reviewed the grantee’s reports for the quarter ending September 30, 2002 for the
three most recent disasters (Disaster Nos. 1243, 1299, and. 1313). On the quarterly progress
report for Disaster No. 1243, there were four “open” projects. A “work completion date” was
not reported for three of the four projects. In addition, for three projects, the state reported that
there was a “cost under run” but the quarterly report did not include any additional information
to describe the amount of the under run or the reason(s) for the under run.

For Disaster No. 1299 there were 17 open projects reported in the quarterly progress report for
the period ending September 30, 2002. Our review showed that the reported project status was
incomplete and inconsistent for several of the open projects. For example:

                                                 9

                                                            Emergency Management Division
 FEMA                                                               State of South Carolina

   •	 The percentage of completion was not shown for any of the 17 projects.

   •	 Project No. 14 – The original completion date of October 12, 2002 was slipped to 

      October 31, 2003. Nevertheless, the project was reported as “On Schedule.” 


   •	 Project No. 16 – The original project completion date of September 19,2002 was changed
      to September 19, 2003 and the remarks section stated that the work should be completed
      by January 31, 2003. Nevertheless, the quarterly reported said that the project was “On
      Schedule.”

   •	 Project Nos. 0020, 0034, and 0038 – The report did not include a starting date for the
      projects.

   •	 Project No. 22 – The scope of work was reported as being “greater than anticipated
      during the preliminary planning.” However, the project was reported as being “On
      Schedule” and costs were reported as “Unchanged.”

   •	 Project No. 33 – Project completion was reported as delayed 30 days because of
      “inclement weather.” However, under “work status” the project was described as “On
      Schedule.”

For Disaster No. 1313, we noted similar omissions of pertinent work status information and
similar inconsistencies in the information presented for the 15 open projects under this HMG
program.

While FEMA regional officials said some progress had been made in the grantee’s quarterly
reporting process, these officials acknowledged that additional improvements were needed to
ensure that reliable and consistent information is provided to the region each quarter. Grantee
HMG program officials also acknowledged that improvements were needed in the state’s
quarterly reporting system. The officials could not explain why the reports were submitted with
unreliable and inconsistent information other than to say that the system had been in place for
sometime and that sufficient staff time had not been available to make necessary changes. In
addition, they said that very often subgrantees do not provide accurate or timely work progress
information.

       Conclusions and Recommendations

We believe quarterly progress reports are one of the most important sources of information
relative to the FEMA regional office’s ability to exercise its management responsibilities for
HMG programs. Unreliable and inconsistent information in the grantee’s quarterly reports
hinders FEMA’s ability to effectively conduct its monitoring responsibilities.




                                               10

                                                              Emergency Management Division
 FEMA                                                                 State of South Carolina

Accordingly, we recommend that the FEMA Regional Director, Region IV:

     1.	 Review the present reporting format and content of the grantee’s HMG progress reports
         to ensure that the reports include the type of information that is needed for the regional
         office to effectively monitor the status of the open HMG projects,

     2.	 Communicate the results of this review to the grantee to ensure that the state’s reports
         contain current, complete, and accurate information concerning the status of the projects,
         and

     3.	 Require the grantee to develop and implement procedures for improving its process for
         the preparation and submission of quarterly progress.

        Management Response and Auditor’s Analysis

The Regional Director, Region IV, and the grantee concurred with the condition cited. Grantee
officials said that all projects are reviewed and discussed, as necessary, with the Region IV staff
on a quarterly basis and that the quarterly reports are now accurate and complete. An example of
the state’s quarterly report for the period ending June 30, 2003, was provided to show that
appropriate status information was reported. The Regional Director also stated that the grantee
is now required to use specified “data points” to improve its process for preparing quarterly
progress reports, and acknowledged that the grantee’s recently submitted quarterly reports
include the required information on a per project basis. Accordingly, we consider the finding
resolved and closed.

2.      PA Quarterly Progress Reporting

The grantee did not submit quarterly progress reports to the FEMA regional office for large PA
projects for Disaster Nos. 1299 and 1313. In addition, the grantee did not enforce the reporting
requirement for its subgrantees to submit quarterly progress reports. As a result, the regional
office and grantee did not have documented, current information on the status of large PA
projects.

        Quarterly Progress Reports to FEMA

Federal regulations, 44 CFR 206.204 requires progress reports to be submitted by the grantee to
FEMA each quarter for all large PA projects on which final payment has not been made. The
quarterly reports are to (1) describe the status of each project and (2) outline any problems or
circumstances expected to result in noncompliance with the approved grant conditions.

Grantee officials acknowledged that progress reports on large PA projects had not been
submitted to the regional office as required. These officials stated that guidance had been
requested from the regional office on the required format for these reports. However, according
to state officials no guidance was provided.


                                                11

                                                               Emergency Management Division
 FEMA                                                                  State of South Carolina

       Quarterly Progress Reports from Subgrantees

The FEMA Public Assistance Guide provides that the state should impose reporting
requirements on applicants for the preparation of quarterly progress reports. Accordingly, the
South Carolina Public Assistance Grant Agreement was signed by the subgrantee and grantee
stating that the subgrantee shall provide quarterly progress reports to the grantee. The first report
was due three months after the date of the agreement. Thereafter, quarterly reports were to be
prepared by the subgrantee until the work was completed and approved through the required
final inspection.

The grantee did not enforce its requirement for subgrantees to submit quarterly progress reports.
PA officials said that the requirement was not enforced because the quarterly report dates were
based on the date the South Carolina Public Assistance Grant Agreement was signed by the
subgrantee. This made it difficult to track due dates for subgrantee quarterly reports. As a
result, procedures supporting the subgrantee reporting requirements were not implemented.

       Conclusions and Recommendations

The quarterly reports on the status of the PA projects are one of the most important sources of
information relative to the FEMA regional office’s ability to exercise its management
responsibilities for the PA program. Also, the lack of PA quarterly reports from the grantee
hindered FEMA’s ability to effectively conduct its management responsibilities. Additionally,
without adequate reports from the subgrantees, the grantee’s ability to effectively monitor PA
projects and subgrantees could be diminished.

Accordingly, we recommend that the FEMA Regional Director, Region IV:

   1.	 Provide guidance to the grantee on the format and content of the required quarterly
       progress reports,

   2.	 Ensure that the grantee, in the future, submits quarterly progress reports to the regional
       office, as required; and,

   3.	 Direct the grantee to establish procedures to ensure that subgrantees submit quarterly
       progress reports that coincide with the quarterly reporting periods established by FEMA
       for the grantee.




                                                 12

                                                              Emergency Management Division
 FEMA                                                                 State of South Carolina

       Management Response and Auditor’s Analysis

The Regional Director, FEMA Region IV, and the grantee concurred with the conditions cited.
The Regional Director advised that guidance was provided to the grantee on the format of the
quarterly progress report and said that, starting with Fiscal Year 2003, the grantee had provided
quarterly reports in the format requested. Further, the Regional Director stated that the format of
the quarterly report is currently being reviewed to more adequately reflect the status of large
projects. Therefore, we consider Recommendation No. 1 and 2 resolved and closed.

However, the Regional Director did not respond to Recommendation No. 3. Accordingly, this
finding cannot be closed until a response to Recommendation No.3 is received.

3.     Shared Mission Assignment Costs

South Carolina had not reimbursed FEMA for its share of mission assignment costs under
Disaster No. 1299. FEMA and the state agreed to share the cost of two mission assignments for
Disaster No 1299. The cost of these mission assignments was $1,055,455 with the state’s share
being $263,861. The grantee stated that it had not paid its share because FEMA had not billed
the state as required under Federal regulations.

Under the mission assignments, the U.S. Army Corps of Engineers and the U.S. Environmental
Protection Agency provided emergency assistance requested by the state. These Federal
agencies completed the requested work at a cost of $1,055,455, and the 25 percent state share of
the cost totaled $263,861. However, FEMA had not billed the state for its matching share.

Audits conducted by the Office of the Inspector General have repeatedly found that management
controls for mission assignments were not adequate and FEMA’s interests were not being
protected. In a report issued in early calendar year 2001, the Inspector General concluded that a
more active approach needed to be taken by the Chief Financial Officer to collect the outstanding
state share of completed mission assignments. The Inspector General recommended that a
review of the status of all mission assignments was needed to determine the amount of funds due
to FEMA and that collection action be initiated as appropriate.

       Conclusion and Recommendations

Our review further supported the findings reported by the Inspector General. Clearly, a more
aggressive approach is needed by the FEMA Chief Financial Officer to identify and collect the
amounts owed to FEMA for shared mission assignments.

       Management Response and Auditor’s Analysis

Although not required, the Regional Director, FEMA Region IV, and the grantee commented on
this finding concurring that state matching funds were due FEMA, but stating that FEMA had
not presented a bill to the state requesting payment. The OIG previously reported this deficiency
in FEMA’s billing practices to the FEMA Chief Financial Officer for corrective actions.

                                                13

                                                              Emergency Management Division
 FEMA                                                                 State of South Carolina

Therefore, a recommendation was not included in this report addressed to the Regional Director.
However, the instances of noncompliance with the matching share requirement, mandated by the
Stafford Act, were relevant to the OIG’s audit objectives and included in this report.

4.     Administrative and Program Plans

Improvements were needed in the preparation and submission of required Hazard Mitigation
program plans and administrative plans for the Individual and Family, Public Assistance, and
Hazard Mitigation Grant programs. The grantee did not always submit the required plans. In
addition, the plans submitted contained incorrect references to Federal requirements. As result,
the grantee was not complying with Federal requirements to have up-to-date and complete
administrative and program plans.

        Individual and Family Grant Program

According to 44 CFR 206.131 states are required to submit IFG administrative plans to the
FEMA regional office for approval each January. In addition, disaster specific administrative
plans were to be submitted to the FEMA regional office shortly after the declaration of a
disaster.

The grantee submitted the required plans to the FEMA regional director for review and approval.
However, the plans incorrectly referred to the requirements of the Single Audit Act of 1984
rather than the requirements as amended in 1996.

       Public Assistance Grant Program

Federal regulations (44 CFR 206.207) require an approved PA administrative plan to be on file
with FEMA before grants will be approved in a future major disaster. The state agencies are to
submit revised PA administrative plans to the FEMA regional director each year. In each
disaster in which public assistance is included, the regional director is to request the grantee to
prepare any amendments required to meet current policy guidelines.

The grantee did not submit annual PA administrative plans as required. South Carolina’s PA
planning process was in response to declared disasters rather than on an annual basis as required
by Federal regulations. In this regard, our review of the PA administrative plans for Disaster
Nos. 1243, 1299 and 1313 found that these disaster specific plans contained obsolete information
regarding the requirements of the Single Audit Act. As was found in the IFG plans, the PA
administrative plans referenced the outdated Single Audit Act of 1984 rather than the
requirements as amended in 1996.

       Hazard Mitigation Grant Program

Under Federal regulations (44 CFR 206.437), states are required to prepare a Section 404
administrative plan after the declaration of a disaster and submit any updates, amendments, or
plan revisions required to meet current policy guidance or changes in the administration of the

                                                14

                                                              Emergency Management Division
 FEMA                                                                 State of South Carolina

HMG program. Federal regulations (44 CFR206.405) require states to prepare a Section 409
Hazard Mitigation program plan within 180 days after the declaration of the disaster and to
submit this plan to FEMA regional director for approval.

South Carolina had not submitted a Section 409 plan for Disaster No. 1243. While the grantee
submitted the required Section 404 plan, we noted that the submitted plan incorrectly stated the
requirements of the Single Audit Act of 1984 rather than the requirements as amended in 1996.

       Conclusions and Recommendations

We discussed the problems found regarding the state’s compliance with the Federal requirements
for administrative and program planning with state officials. These officials agreed to make
appropriate changes in future plans. However, we believe that the failure to submit required
plans and the submission of plans with incorrect references to the Single Audit Act indicates the
need for improvement in the state’s planning process.

Accordingly, we recommend that the FEMA Regional Director, Region IV:

    1.	 Develop procedures to ensure that state administrative and program plans are received,
        as required, and comply with Federal requirements,

    2.	 Require the grantee to develop and implement appropriate procedures to ensure that
        future administrative and program plans contain current, accurate, and complete
        information and are submitted accordance with Federal requirements.

        Management Response and Auditor’s Analysis

The Regional Director, FEMA Region IV, and the grantee concurred with the conditions cited,
but did not respond to the recommendations. For the IFG program, the grantee pointed out that
the program no longer exists. We acknowledge that the Individuals and Households Program
has replaced the IFG program and that IFG administrative plans are no longer required.

For the PA program, the grantee said that PA administrative plans would be submitted in January
of each year. In addition, the grantee said that, upon the occurrence of a disaster, the plan would
be revised to reflect the specific disaster. For the HMG program, the grantee said that the
Disaster Mitigation Act of 2000 eliminated the requirement for the Section 409 plan. The
grantee also said that the obsolete references in the PA and HMG administrative plans to the
outdated Single Audit Act of 1984 had been replaced with reference to the amended Act of 1996.
.

We recognize that the HMG planning process is changing as a result of the enactment of the
Disaster Mitigation Act of 2000. The Regional Director’s concurrence with the finding is
sufficient to resolve the condition cited. However, the finding cannot be closed until the
Regional Director address the recommendations for procedures to be established within the
Regional Office and at the grantee to ensure compliance with planning requirement in the future.

                                                15

                                                             Emergency Management Division
 FEMA                                                                State of South Carolina


5.      Subgrantee Single Audit Act Compliance

Improvements were needed in the grantee’s procedures for ensuring that HMG and PA
subgrantees comply with the requirement of the Single Audit Act. Although some Public
Assistance subgrantees provided single audit reports, the grantee did not review the reports to
determine if “material” findings had been reported that might affect the award of future Federal
disaster assistance funds. Also, grantee officials were not aware that some HMG program
subgrantees had submitted audit reports for review. Accordingly, the grantee did not have
reasonable assurance that HMG and PA subgrantees had properly accounted for or safeguarded
Federal funds in accordance with Federal requirements.

OMB Circular A-133 requires non-federal entities that expend $300,000 or more of Federal funds
in a year to have an audit conducted under the requirements of the Single Audit Act. The
objectives of a single audit include providing an understanding of internal controls, assessing
risks, and testing internal controls over the expenditure of Federal funds. The grantee’s
responsibility related to subgrantees and the Single Audit Act requirements include:

     •	 Advising subgrantees of the requirements of the Single Audit Act,

     •	 Ensuring that subgrantees expending $300,000 or more in Federal funds during the
        subgrantee’s fiscal year meet the audit requirements for that fiscal year, and

     •	 Receiving copies of single audit reports from subgrantees and reviewing the reports to
        determine if corrective actions are needed and taken by the subgrantees.

The grantee in its pre-application briefings for potential subgrantees for the Public Assistance
and Hazard Mitigation programs provided information relative to the Single Audit Act
requirements. In addition, in the state/subgrantee agreements for PA and HMG projects, the
grantee stated that the subgrantee must provide for an annual audit, conducted in accordance
with OMB A-133.

In response to the information disseminated by the grantee, we found that a number of Public
Assistance subgrantees had provided single audit reports to the grantee. Although some PA
subgrantees are also HMG subgrantees, HMG officials were not aware that single audit reports
were available for review.

The grantee did not have a tracking system to ensure that PA and HMG subgrantees that
exceeded the expenditure threshold of the Single Audit Act had been audited as required. In
addition, we found that grantee officials had not reviewed the audit reports that were received to
determine if findings were reported that would have an adverse impact on future awards of
FEMA funds.




                                               16

                                                             Emergency Management Division
 FEMA                                                                State of South Carolina

       Conclusions and Recommendations

Reviews of single audit reports are intended to alert the state of pertinent programmatic and
financial-related issues concerning the subgrantees management of Federal funds. This
information is intended to assist the state in identifying instances of noncompliance with Federal
requirements and weaknesses in internal controls, which if not corrected, could adversely impact
the use of FEMA funds.

Accordingly, we recommend that the Regional Director, Region IV, require the grantee to
develop and implement effective procedures to ensure that subgrantees comply with the
provisions of the Single Audit Act. The procedures should include a system for tracking reports
received, a mechanism to ensure that reports received are reviewed, and appropriate follow-up
with subgrantees to ensure that appropriate corrective actions are taken.

       Management Response and Auditor’s Analysis

The Regional Director, FEMA Region IV and the grantee concurred with the condition cited.
The grantee stated that letters had been sent to all subgrantees and that annual follow-up reviews
on the status of subgrantee audits would be accomplished. The grantee also said that the audit
reports received would be reviewed to identify issues affecting the PA and HM programs to
ensure that subgrantees have taken the necessary corrective actions. The Regional Director
concurred with the corrective action proposed by the grantee. However, the proposed actions do
not includes procedures to identify subgrantees that are required to have a single audit performed
and have not complied with the requirement. Accordingly, this finding is resolved, but cannot be
closed until such procedures have been implemented.

B.     Financial Management

1.     Allocation of State Management Costs

South Carolina’s procedures for allocating management costs under the Hazard Mitigation Grant
Program need to be improved. Our audit disclosed that management costs were not always
charged to the correct disaster. As a result, the costs of the HMG programs under particular
disaster declarations were misstated.

OMB Circular A-87 states that costs, to be allowable under Federal awards, must be (1)
allocable to Federal awards, (2) necessary and reasonable for proper and efficient performance,
and (3) adequately documented. A cost is allocable to a cost objective if goods and services
involved are chargeable or assignable to such cost objectives in accordance with the relative
benefits received. OMB Circular A-87 further provides that (1) any cost allocable to a particular
Federal award may not be charged to other Federal awards, and (2) salaries and wages allocated
to more than one cost objective must be supported by time and effort reports or some other form
of documentation supporting costs charged to each cost objective.



                                               17

                                                                              Emergency Management Division
    FEMA                                                                              State of South Carolina

The grantee was awarded an HMG state management grant for $344,087 for estimated labor,
equipment, and other costs related to the management of the HMG program under Disaster No.
1299. The management grant was awarded on November 15, 1999 and amended to continued
until at least September 30, 2003. During this period, the grantee management team was
working on two HMG programs (Disaster Nos. 1299 and 1313). Disaster No. 1299 was declared
on September 21, 1999 and Disaster No. 1313 was declared on January 31, 2000. However, we
found that the grantee HMG costs for employee salaries, fringe benefits, equipment and office
facilitation2 costs were charged to Disaster No. 1299. None of the costs were allocated to
Disaster No. 1313 because the grantee did not request a state management grant for that HMG
program.

           Conclusions and Recommendations

State management costs for the HMG program were not allocated in accordance with the cost
principles established in OMB Circular A-87. Accordingly, we recommend that the FEMA
Regional Director, Region IV, require the grantee to establish procedures for allocating state
management costs to the benefiting disaster programs in accordance with Federal regulations.

           Management Response and Auditor’s Analysis

  The Regional Director, FEMA Region IV, stated that the grantee submitted a corrected
management cost plan that allocates cost to the various disasters and concurred with the actions
taken. Also, the grantee stated that management costs for all future disasters would be allocated
as required. Accordingly, the finding is resolved and closed.

2.         Use of Administrative Allowances

The grantee used administrative allowances to pay expenses that were not extraordinary as
defined by Federal policy. For the PA and HMG programs for Disaster No. 1299, the grantee
used over $30,000 of the administrative allowance to pay for computer software, user licenses,
and other computer-related purchases. These types of expenses are not considered extraordinary
and are not to be paid with administrative allowance funds. As a result, the grantee was not in
compliance with Federal requirements.

Federal regulations [44 CFR 206.228 and 44 CFR 206.439] provide administrative allowances to
state grantees for extraordinary expenses associated with the administration of PA and HMG
programs. FEMA policy established that overtime pay, per diem and travels expenses incurred
by state employees for the preparation of applications, quarterly reports, final audits, and related
field inspections are to be considered extraordinary. Regular salaries for state employees and
other expenses associated with the management of the programs are not to be paid from the
administrative allowance.




2   Facilitation costs included utilities, maintenance, rent, and mailing expenses.
                                                             18
                                                             Emergency Management Division
 FEMA                                                                State of South Carolina

Our test of PA program expenditures under Disaster No. 1299 for the quarter ending June 30,
2002 disclosed that the grantee’s administrative allowance was used to purchase computer
software and user licenses totaling $15,180. In addition, the grantee used the administrative
allowance for the Disaster No. 1299 HMG program to purchase computer-related purchases
totaling $14,875. According to FEMA policy, these purchases did not qualify as extraordinary
expenses. As a result of the costs being charged to the administrative allowances, the grantee
was reimbursed for 100 percent of these costs compared to only 75 percent had the costs been
approved under a management grant

The use of administrative allowances was discussed with grantee officials. These officials said
that the grantee’s use of administrative allowances for any administrative cost, not just
extraordinary costs, was based on an interpretation of guidance received from FEMA.
Documentation to support this interpretation was not available.

       Conclusions and Recommendations

The grantee used administrative allowance funds for expenses that did not qualify as
extraordinary expenses according to Federal regulations. While our test of selected transactions
showed that ineligible expenses were paid with administrative allowance funds for the PA and
HMG programs of Disaster No. 1299, a comprehensive review of expenses is needed to
determine the total ineligible costs.

Accordingly, we recommend that the Regional Director, Region IV, require the grantee to:

   1.	 Review the charges to the administrative allowance accounts for PA and HMG programs
       to ensure that only extraordinary costs are charged to the account, and

   2.	 Establish accounting procedures to ensure that the FEMA approved administrative
       allowances are used only for extraordinary expenses as required by Federal policy.

       Management Response and Auditor’s Analysis

The Regional Director, FEMA Region IV, and the grantee concurred with the condition cited.
The Regional Director said that FEMA has not clearly defined the use of the administrative
allowance associated with the disaster assistance programs. Also, the grantee said that
administrative allowances were used to administer programs when management costs did not
cover program expenses and generally this was done at the grantee’s discretion. Further, the
grantee said that these funds were always monitored and that the funds used for debatable items
under Disaster No. 1313’s PA program, had been corrected. The Regional Director concurred
with the corrective actions taken by the grantee, and we consider the finding resolved and closed.




                                               19

                   Emergency Management Division
FEMA                       State of South Carolina




       ATTACHMENTS 





            20

                                                                  Emergency Management Division
 FEMA                                                                     State of South Carolina


                                                                                          Attachment A-1
                                  Sources and Applications of Funds
                                      As of September 30, 2002

            All Disasters No.’s 843 thru 1313 plus the Floyd Supplemental Award

                                         Public            Individual         Hazard
                                                                                               Totals
                                        Assistance         & Family          Mitigation
Award Amounts (FEMA approved)
        Federal Share                     $274,789,737       $58,835,531      $24,727,512     $358,352,780
        Local Match/State Share            $90,680,613       $19,415,725       $8,506,385     $118,602,723
Total Award Amounts                       $365,470,350       $78,251,256      $33,233,897     $476,955,503


Sources of Funds
        Federal Share (SMARTLINK)         $274,396,388       $58,835,531      $18,904,820     $352,136,739
        Local Match/State Share            $20,030,979       $19,186,594      $12,916,512      $52,134,085
                                          $294,427,367       $78,022,125      $31,821,332     $404,270,824


Total Undrawn Authorizations                 $393,349                   $0     $5,822,692       $6,216,041


Application of Funds (Expenditures)
        Federal Share                     $274,396,388       $58,927,948      $18,950,741     $352,275,077
        Local Match/State Share            $20,030,979       $19,200,387      $12,922,156      $52,153,522
Total Application of Funds                $294,427,367       $78,128,335      $31,872,897     $404,428,599


Balance of Federal Funds On Hand                      $0       ($92,417)         ($45,921)      ($138,338)




                                                     21
                                                                   Emergency Management Division
 FEMA                                                                      State of South Carolina


                                                                                               Attachment A-2
                                  Sources and Applications of Funds
                                      As of September 30, 2002
                                           Disaster No. 843
                                    Declared September 22, 1989

                                          Public           Individual         Hazard
                                                                                                   Totals
                                         Assistance        & Family          Mitigation
Award Amounts (FEMA approved)
        Federal Share                     $237,582,426      $53,442,325       $11,090,956          $302,115,707
        Local Match/State Share            $78,402,201      $17,635,967        $3,660,015           $99,698,183
Total Award Amounts                       $315,984,627      $71,078,292       $14,750,971          $401,813,890


Sources of Funds
        Federal Share (SMARTLINK)         $237,582,426      $53,442,325       $11,090,956          $302,115,707
        Local Match/State Share             $8,250,000      $17,396,596       $10,010,704           $35,657,300
Total Sources of Funds                    $245,832,426      $70,838,921       $21,101,660          $337,773,007


Total Undrawn Authorizations                          $0                $0                $0                $0


Application of Funds (Expenditures)
        Federal Share                     $237,582,426      $53,442,325       $11,090,956          $302,115,707
        Local Match/State Share             $8,250,000      $17,396,596       $10,010,704           $35,657,300
Total Application of Funds                $245,832,426      $70,838,921       $21,101,660          $337,773,007


Balance of Federal Funds On Hand                      $0                $0                $0                $0


Program Status September 30, 2002         Closed            Closed            Closed


   Note: Even though all three programs were closed at September 30, 2002, the FEMA-State
 Agreement was still open.




                                                   22

                                                                Emergency Management Division
 FEMA                                                                   State of South Carolina


                                                                                           Attachment A-3
                                  Sources and Applications of Funds
                                      As of September 30, 2002
                                           Disaster No. 881
                                     Declared October 22, 1990

                                              Public           Individual      Hazard
                                                                                                Totals
                                             Assistance        & Family       Mitigation
Award Amounts (FEMA approved)
        Federal Share                            $4,233,066       $733,540       $442,057        $5,408,663
        Local Match/State Share                  $1,396,912       $242,068       $492,185        $2,131,165
Total Award Amounts                              $5,629,978       $975,608       $934,242        $7,539,828


Sources of Funds
        Federal Share (SMARTLINK)                $4,233,066       $733,540       $442,057        $5,408,663
        Local Match/State Share                  $1,268,572       $252,308       $492,185        $2,013,065
Total Sources of Funds                           $5,501,638       $985,848       $934,242        $7,421,728


Total Undrawn Authorizations                              $0             $0             $0               $0


Application of Funds (Expenditures)
        Federal Share                            $4,233,066       $733,540       $442,057        $5,408,663
        Local Match/State Share                  $1,268,572       $252,308       $492,185        $2,013,065
Total Application of Funds                       $5,501,638       $985,848       $934,242        $7,421,728


Balance of Federal Funds On Hand                          $0             $0             $0               $0


Program Status September 30, 2002             Closed            Closed         Closed

   Note: Even though all three programs were closed at September 30, 2002, the FEMA-State Agreement
 was still open.




                                                23

                                                                  Emergency Management Division
 FEMA                                                                     State of South Carolina


                                                                                      Attachment A-4
                                  Sources and Applications of Funds
                                      As of September 30, 2002
                                          Disaster No. 1243
                                     Declared September 4, 1998

                                              Public           Individual     Hazard
                                                                                            Totals
                                             Assistance        & Family      Mitigation
Award Amounts (FEMA approved)
        Federal Share                            $3,363,389                     $644,476    $4,007,865
        Local Match/State Share                  $1,109,918                     $212,677    $1,322,595
Total Award Amounts                              $4,473,307             $0      $857,153    $5,330,460


Sources of Funds
        Federal Share (SMARTLINK)                $3,363,389                     $416,172    $3,779,561
        Local Match/State Share                  $1,074,158             $0      $134,357    $1,208,515
Total Sources of Funds                           $4,437,547             $0      $550,529    $4,988,076


Total Undrawn Authorizations                              $0            $0      $228,304      $228,304


Application of Funds (Expenditures)
        Federal Share                            $3,363,389                     $416,172    $3,779,561
        Local Match/State Share                  $1,074,158                     $134,357    $1,208,515
Total Application of Funds                       $4,437,547             $0      $550,529    $4,988,076


Balance of Federal Funds On Hand                          $0            $0            $0             $0



Program Status September 30, 2002              Open               N/A          Open




                                                  24
                                                                     Emergency Management Division
 FEMA                                                                        State of South Carolina


                                                                                           Attachment A-5
                                  Sources and Applications of Funds
                                      As of September 30, 2002
                                          Disaster No. 1299
                                    Declared September 21, 1999

                                           Public           Individual         Hazard
                                                                                                Totals
                                          Assistance        & Family          Mitigation
Award Amounts (FEMA approved)
        Federal Share                       $20,612,163       $4,659,666        $6,653,878      $31,925,707
        Local Match/State Share              $6,802,014       $1,537,690        $2,195,780      $10,535,484
Total Award Amounts                         $27,414,177       $6,197,356        $8,849,658      $42,461,191


Sources of Funds
        Federal Share (SMARTLINK)           $20,292,100       $4,659,666        $2,556,780      $27,508,546
        Local Match/State Share              $6,544,630       $1,537,690          $843,737       $8,926,057
Total Sources of Funds                      $26,836,730       $6,197,356        $3,400,517      $36,434,603


Total Undrawn Authorizations                  $320,063                   $0     $4,097,098       $4,417,161


Application of Funds (Expenditures)
        Federal Share                       $20,292,100       $4,752,083        $2,602,698      $27,646,881
        Local Match/State Share              $6,544,630       $1,551,483         $849,381        $8,945,494
Total Application of Funds                  $26,836,730       $6,303,566        $3,452,079      $36,592,375


Balance of Federal Funds On Hand                       $0      ($92,417)         ($45,918)       ($138,335)


Program Status September 30, 2002           Open              Open              Open




                                                   25

                                                                 Emergency Management Division
 FEMA                                                                    State of South Carolina


                                                                                            Attachment A-6
                                  Sources and Applications of Funds
                                      As of September 30, 2002
                                          Disaster No. 1313
                                     Declared January 31, 2000

                                          Public             Individual         Hazard
                                                                                                 Totals
                                         Assistance          & Family          Mitigation
Award Amounts (FEMA approved)
        Federal Share                        $8,998,693                          $1,370,418      $10,369,111
        Local Match/State Share              $2,969,569                            $452,238       $3,421,807
Total Award Amounts                         $11,968,262                   $0     $1,822,656      $13,790,918


Sources of Funds
        Federal Share (SMARTLINK)            $8,925,407                            $426,730       $9,352,137
        Local Match/State Share              $2,893,619                            $138,280       $3,031,899
Total Sources of Funds                      $11,819,026                   $0       $565,010      $12,384,036


Total Undrawn Authorizations                    $73,286                   $0       $943,688       $1,016,974


Application of Funds (Expenditures)
        Federal Share                        $8,925,407                            $426,730       $9,352,137
        Local Match/State Share              $2,893,619                            $138,280       $3,031,899
Total Application of Funds                  $11,819,026                   $0       $565,010      $12,384,036


Balance of Federal Funds On Hand                        $0                $0                $0            $0


Program Status September 30, 2002          Open                 N/A              Open




                                                  26

                                                                Emergency Management Division
 FEMA                                                                   State of South Carolina


                                                                                           Attachment A-7
                                 Sources and Applications of Funds
                                     As of September 30, 2002
                           Floyd Supplemental Award - Disaster No. 4299
                                Funds Available November 29, 1999

                                         Public             Individual         Hazard
                                                                                                Totals
                                        Assistance          & Family          Mitigation
Award Amounts (FEMA approved)
        Federal Share                                                           $4,525,727       $4,525,727
        Local Match/State Share                                                 $1,493,490       $1,493,490
Total Award Amounts                                    $0                $0     $6,019,217       $6,019,217


Sources of Funds
        Federal Share (SMARTLINK)                                               $3,972,125       $3,972,125
        Local Match/State Share                                                 $1,297,249       $1,297,249
Total Sources of Funds                                 $0                $0     $5,269,374       $5,269,374


Total Undrawn Authorizations                           $0                $0       $553,602        $553,602


Application of Funds (Expenditures)
        Federal Share                                                           $3,972,128       $3,972,128
        Local Match/State Share                                                 $1,297,249       $1,297,249
Total Application of Funds                             $0                $0     $5,269,377       $5,269,377


Balance of Federal Funds On Hand                       $0                $0            ($3)              ($3)


Program Status September 30, 2002          N/A                 N/A              Open




                                                 27

                                                    Emergency Management Division
 FEMA                                                       State of South Carolina


                                                                      Attachment B
                               List of Acronyms


CFR     Code of Federal Regulations

DSS     South Carolina, Department of Social Services

FEMA    Federal Emergency Management Agency

GSA     General Services Administration

HMG     Hazard Mitigation Grant

IFG     Individual and Family Grant

OMB     Office of Management and Budget

OIG     Office of Inspector General

PA      Public Assistance

PW      Project Worksheet




                                       28

                      Emergency Management Division
FEMA                          State of South Carolina




       MANAGEMENT COMMENTS





                29

The Federal Emergency Management Agency (FEMA) and the State of South Carolina have
received the recommendations brought forward in the above referenced audit report. In
accordance with FEMA Instruction 1270.1, this serves as notice of action taken in response to the
Office of Inspector General’s recommendations outlined in the audit of South Carolina’s
Administration of Disaster Assistance Funds. Please refer to the attached audit responses from
the Infrastructure Branch and the Hazard Identification and Risk Assessment Branch.

This office considers all findings resolved and closed. If you have any further questions, please
do not hesitate contacting Mr. Charles M. Butler, Emergency Analyst, at (770) 220-5460.

Attachment




                                                30
The Federal Emergency Management Agency (FEMA) and the State of South Carolina, have
received the recommendations brought forward in the above referenced Audit Report. The
Attached December 12, 2003, response from South Carolina provides information on the actions
taken in response to your recommendations.

A. Program Management

A.1. Hazard Mitigation Grant Program (HMGP) Quarterly Progress Reporting:
Region IV developed a list of data points for quarterly reports to improve the current information
that was being reported from our states. Currently these data points are provided on a per project
basis and represent a complete progress report, which in essence is a comprehensive assessment
of any given disaster. The State of South Carolina is currently providing this type data on a
quarterly basis. An example of their quarterly report is attached. (Attachment 1)

A.4. Administrative and Hazard Mitigation Plans: We concur that this finding has been resolved.
In response to the 409 Plan update findings, it was discussed and documentation has been
provided explaining the new planning requirements due to the Disaster Mitigation Act of 2000.
The 409 Plan updates are no longer required, the Hazard Mitigation Plan incorporation the new
planning regulations must be submitted by November 11, 2004. (Attachment 2)

A.5. Subgrantee Single Audit Act Compliance: We concur with the corrective action proposed
by the State. Audits received will be forwarded to the office of the Chief, Recovery and
Mitigation, where they will be reviewed for findings that could possibly affect federal PA and
HMGP awards.

                                               31

B.     Financial Management

B. 1. Allocation of State Management Cost: We concur with the corrective action proposed by
the State. Region IV has received the corrected management cost plan from the State that
allocates cost throughout all disasters. The Office of Management and Budget have recently
approved the corrected management cost plan. Please see attachment #3 for reference.

B. 2. Use of Administrative Allowances: We concur with the actions taken by the State to more
closely monitor the expenditure of grantee allowances for “extraordinary” costs in compliance
with Federal guidelines. Correction was made for DR-13 13. The State also provided
information on the procedures that were established to ensure that all Subgrantees were informed
of the requirement to document and account for use of administrative funds.

This office has reviewed the auditor’s findings and Corrective Action Plan and concurs. Since
the State’s actions have been implemented and are ongoing procedures, we consider all findings
to be resolved and closed.

If you have any questions, please do not hesitate to contact this office, at (770) 220-5400.


Attachments




Note: The attachments provided with the comments have been incorporated into the audit
workpapers.




                                                32

The Federal Emergency Management Agency (FEMA) and the State of South Carolina, have
received the recommendations brought forward in the above-referenced Audit Report. The
attached December 12, 2003, response from South Carolina provides information on the actions
taken in response to your recommendations.

The State has concurred in all but one finding (Shared Mission Assignment Costs). This finding
remains open until FEMA takes the appropriate action of billing the State for the amount due.
Our evaluation of the corrective actions taken by the State in reference to findings pertaining to
PA Program is included below:

A. Program Management

A.2. PA Quarterly Progress Reporting: All quarterly reports for FY 2003 and the first quarter
report for FY 2004 have been provided by the State in the format requested by the Region IV PA
Branch. This format is currently being reviewed by the FEMA PA Branch to more adequately
reflect the current status. (See attachment.)

A.3. Shared Mission Assignment Costs: We concur with the State non-concurrence. Until FEMA
issues an invoice for the State share of mission assignment costs, this issue remains open. The
State has requested this action from FEMA Regional staff working with Headquarters Finance
and Administration. FEMA has not yet responded with the requested invoice. The State has
verbally indicated it is prepared to pay this invoice upon receipt.



                                                33

A.4. Administrative and Program Plans: We concur with the corrective action proposed by the
State to submit a non-disaster specific PA Administrative plan in January of each year, with
disaster-specific plans for declared disasters. The State has corrected the Single Audit Act
reference in its current plan.

A.5. Subgrantee Single Audit Act Compliance: We concur with the corrective action proposed
by the State. The State has initiated a tracking mechanism for following up with their request for
the single audits from Subgrantees.

B. Financial Management

B.2. Use of Administrative Allowances: The use of grantee administrative allowances associated
with Federal disaster assistance grants have not been clearly defined by FEMA. We concur with
the actions taken by the State to more closely monitor the expenditure of grantee administrative
allowances for “extraordinary” costs in compliance with Federal guidelines. Correction was
made for DR-13 13 The State also provided information on the procedures that were
                   .


established to ensure that all Subgrantees were informed of the requirement to document and
account for use of administrative funds.

This office has reviewed the auditor’s finings and Corrective Action Plan and concurs. Since the
State’s actions have been implemented and are ongoing procedures, we consider all but one
finding to be resolved and closed.

If you have any questions, please do not hesitate to contact this office, at (770) 220-5300.

Attachments




               Note: The attachments provided with the comments have been incorporated into
               the audit workpapers.




                                                34

     Dear Mr. Burns: 


     Reference your letter, dated December 3, 2003, forwarding the draft report of the Audit of 

     Disaster Assistance Grant Program Management for the State of South Carolina. 


     Please find attached our actions to implement the recommendations included in the Audit 

     Report.

     Should you have questions, please contact Steve Overcash, Chief, Recovery and
     Mitigation, at (803) 737-8564.

                                                          Sincerely,




                                                          Ronald C. Osborne
                                                          Director


Attachment




                                             35
12 December 2003


                                    Comments
                                        on
            Audit of Disaster Assistance Grant Program Management
                                        by
                               Foxx and Company
                                        for
                           The State of South Carolina
              (South Carolina Emergency Management Division)

A.     Program Management

1.      HMG Quarterly Progress Reporting
        a.     Concur
        b.     The audit indicated that quarterly reports were inaccurate or incomplete. A new
management software, Mitigation Management System (MMS), was being implemented and the
errors were the result of learning how to use the system. The quarterly reports are now accurate
and complete. Additionally, all projects are reviewed, and discussed as necessary, with the
Region IV staff on a quarterly basis.

2.      PA Quarterly Progress Reporting
        a.      Concur
        b.      Prior to this audit, Region IV had not required quarterly reports nor provided a
format. However, quarterly reports are now being provided to Region IV in the format recently
provided. The information provided includes the disaster status, large projects open, time
extensions approved, small project reviews, projections for the next quarter, and discussion of
concerns, and other matters of significance. Sub-grantees are required to report quarterly on open
large projects and the information reported includes percentage of work completed, timeliness,
milestones achieved each quarter, projected completion schedule, and cost status.

3.     Shared Mission Assignment Costs
        a.    Non-concur
        b.    Lack of payment of shared mission assignments should not be included in the
audit. Payment cannot be made without a bill from FEMA and no such bill has been presented.

4.      Administrative and Program Plans
        a.      Concur
        b.      Individual and Family Grant Program: The IFG program no longer exists;
therefore, the finding is considered resolved.
        c.      Public Assistance Grant Program: While annual PA administrative plans were
not submitted to FEMA RIV, disaster-specific plans were submitted for disaster 1243 (1998), 1
299 (1 999), and 13 1 3 (2000). Hereafter, non-specific PA administrative plans will be
                                               36

submitted in January of each year. Additionally, upon the occurrence of a disaster, the plan will
be revised to reflect the specific disaster and submitted to the Federal Coordinating Officer. The
obsolete reference to the outdated Single Audit Act of 1984 has been replaced with reference to
the requirements as amended in 1996, therefore, the finding is considered resolved.

       d.      Hazard Mitigation Grant Program : Section 409 plans were submitted and
approved for disasters 1 299 and 1 3 1 3 The Disaster Mitigation Act of 2000 eliminated this
                                            .


requirement for the Section 409 plan. The obsolete reference to the outdated Single Audit Act of
1 984 has been replaced in the Section 404 plan with reference to the requirements as amended
in1996. This finding is considered resolved.

5.      Subgrantee Single Audit Act Compliance
        a.      Concur
        b.      Subgrantees have always been advised of the Single Audit Act requirement in the
State/Applicant Agreements for both PA and HMGP; however, follow up on submission and
review has not always been timely. Letters have since been sent to all subgrantees for fiscal years
2001 and 2002, and follow up reviews requesting the status of their audits will be accomplished
annually. Audits received will be forwarded to the office of the Chief, Recovery and Mitigation,
where they will be reviewed for findings that could possibly affect federal PA and HMGP
awards. If findings are identified that relate to federal disaster assistance funds, the SCEMD will
take action in accordance with 0MB Circular A. 133.

B.       Financial Management

1    .  Allocation of State Management Costs
        a.     Concur
        b.     The state management costs for disasters 1299 and 1 3 1 3 were charged only to
Disaster 1299. This was done with the full knowledge and approval of FEMA RIV and to reduce
management costs. We have submitted a management cost budget to FEMA RIV for disaster
1313 to be effective November 1, 2003 Management costs will be separated for all future
                                        .


disasters.

2.      Use of Administrative Allowances
        a.      Concur, with comment.
        b.      The use of administrative allowances associated with federal disaster assistance
grants has not been clearly defined by FEMA. Allowances were used to administer the programs
when management costs did not cover expenses. The CFR allows for “extraordinary” costs in
administering the program. The use of these funds has generally been at the
grantee’s/subgrantee’s discretion. These funds have always been monitored and for Disaster
1313, PA administrative funds that were used for debatable items have been corrected.
Subgrantees were informed during Applicants Briefings for both PA and HMGP for Disaster
1451 (January 2003) that all administrative funds must be properly accounted for, their use must
be clearly documented, and are subject to audit. The use of these funds will be reviewed during
the final inspections for PA large projects and all HMGP projects.


                                                37

For PA small projects, the federal share is provided to the subgrantee as soon as practical after
approval of the federal funding. Prior to small project closeout, the grantee must certify that all
work has been completed in accordance with the federal approval and the state share (if
applicable) of the non-federal share has been paid. This certification is not required to specify the
amount spent by the subgrantee on the small project. Additionally, the federal payment shall not
be reduced if all of the approved funds are not spent to complete a project. Since the
administrative funds are based upon a sliding scale percentage of the project cost, there is no
mechanism to reduce these funds for projects where the full approved amount was not spent. All
of this discussion on PA small projects is clearly spelled out in 44CFR206.205(a).




                                                 38

